    June 4, 2002




Testimony

                      Statement
                           of
                Robert J. Lieberman
             Deputy Inspector General
                        of the
              Department of Defense
                        to the
        Subcommittee on National Security,
    Veterans Affairs, and International Relations
      House Government Reform Committee
                          on
   Transforming Defense Financial Management:
               A Strategy for Change




                No. D-2002-099



               Department of Defense
           Office of the Inspector General

 Quality              Integrity         Accountability
Mr. Chairman and Members of the Committee:

       Thank you for the opportunity to provide the views of the Office of
the Inspector General of the Department of Defense on transforming
financial management, which surely ranks as one of the Department's most
difficult management improvement challenges. I would like to begin by
noting the fundamental fiduciary responsibility of the Department of
Defense, which is to manage assets purchased with taxpayer dollars
effectively and efficiently. Furthermore, Article I, Section 9 of the
Constitution of the United States stipulates that "a regular Statement and
Account of the Receipts and Expenditures of all public Money shall be
published from time to time." As you know from your numerous hearings
on DoD financial management, the Department has had long-standing
problems in compiling accurate financial statements.

The Need for Transformation

       The Federal Government and Department of Defense have had
numerous financial management improvement plans, programs, and goals
over the past 50 years. Perhaps it appears ironic today, but in the 1960's the
Department was the leader in adapting new financial management concepts
for government agencies. Its Planning, Programming and Budgeting System
was widely emulated and it led the way in computerizing large payroll,
contractor payment and accounting operations during the 1960's and 70's.
Unfortunately, the uncontrolled proliferation of nonstandard systems for
performing both financial and nonfinancial functions in DoD created a host
of problems that now plague managers. Those problems include a lack of
integrated information systems that can consistently produce either useful
day-to-day fiscal information or commercial type financial statements on a
quarterly, semiannual or even annual basis. The limited capabilities of
current systems create and perpetuate inefficiencies across the spectrum of
DoD business activities.

       The Chief Financial Officers Act of 1990 and related legislation
brought the financial reporting problems of most Federal agencies, including
DoD, to light by requiring Inspector General audits of year-end financial
statements. For over a decade, the Office of the Inspector General of the
DoD has reported that the lack of adequate financial reporting systems and a
variety of internal control problems preclude favorable audit opinions on
most DoD year-end financial statements.
                                                                                2


Opinions on Financial Statements for FY 2001

      In terms of audit opinions on the reliability of DoD's most recent
financial statements, I am unable to report progress for the DoD-wide or
major component funds. As in previous years, we issued an unqualified
(clean) opinion this year for the Military Retirement Fund's statements.
Disclaimers of opinion were necessary for all other major funds, however,
because of serious deficiencies in the reporting systems and other internal
control problems. A few DoD organizations, whose funds are not large
enough to require separate reporting to OMB, have achieved favorable audit
opinions, but the impact is primarily symbolic.

Other Recent Audit Results

       Although the annual audit opinions on year-end financial statements
may continue to attract more attention than most individual audit reports, the
DoD progress in addressing the specific findings and recommendations in
those reports will be a critical factor in how much financial management
improvement actually occurs, especially in crucial day-to-day activities like
paying bills and collecting debts.

      The variety of recent audit findings illustrates the breadth of the DoD
financial management challenge.

             -- We reported in May 2001 that the Defense Finance and
Accounting Service needed to be more efficient and aggressive in collecting
debt from large contractors. We identified 148 cases worth $12.6 million
where action was needed. The List of Contractors Indebted to the United
States, which is a tool used by disbursing officers to offset contractor debts,
included numerous invalid debts and other erroneous data that reduced its
usefulness. (Report D-2001-114)

            -- In June 2001, we reported that DoD had successfully adapted
a commercial automated payment system for DoD freight payment purposes.
This enabled the Department to move away from untimely, paper-based,
poorly controlled and labor intensive processes for 1.25 million payments
per year. However, additional measures were warranted to take full
advantage of the system's capabilities and achieve optimum streamlining
without undue risk of fraud or error. (Report D-2001-148)
                                                                             3


             -- In August 2001, we reported that the DoD had failed to
develop a standardized cost accounting system for managing the life cycle
costs of weapon systems. DoD reports that various acquisition reform goals
had been met by establishing such a system were wrong. (Report D-2001-
164)

            -- The DoD agreed with Congress in August 1998 to implement
a new policy to decrease the risk of progress payments being charged to the
wrong accounts. We reported in September 2001 that implementation had
been poorly managed and the new policy was ineffectual. (Report D-2001-
188)

              -- We reported in November 2001 that DoD financial
management systems were not integrated and could not share data without
expensive and inefficient crosswalks. Nevertheless, the Department had
been moving ahead with the Defense Finance and Accounting Service
Corporate Database and other projects, with insufficient assurance that a
truly integrated set of systems would result. (Report D-2002-014)

             -- The DoD plans to begin the transition from the existing
contractor payment system, the archaic Mechanization of Contract
Administration Services (MOCAS) system, to the new Defense Procurement
Payment System by FY 2003. Full transition should bring significant
improvement to DoD contract administration and disbursement activities.
To ensure a smooth transition, it is important to close as many contracts that
have been completed, but not closed out, as possible. In December 2001, we
reported that DoD had a six year backlog of contract closure actions and
needed to accelerate the process. In addition, there were weaknesses in the
closure procedures, insufficient resources earmarked for the task and
untimely contractor input. Cumulatively, these problems increased the risk
to an orderly transition. (Report D-2002-027)

              -- From FY 1996 through FY 2001, 382 General Accounting
Office and DoD audit reports addressed a wide range of management control
issues in the DoD Purchase Card Program. The Army and Air Force had
particularly thorough internal audit coverage. Those audit results were
summarized in a December 2001 Inspector General, DoD, report. Auditors
documented numerous instances of misuse of the cards, lack of oversight
and accountability, splitting purchases to avoid oversight, failure to
segregate duties and inadequate training. (Report D-2002-029)
                                                                               4



              -- In January 2002, we reported that most DoD components
initially had done little to implement the DoD Financial and Feeder Systems
Compliance Process, which had been recommended by us in 1999 and was
finally inaugurated by the Department in January 2001, to apply the proven
management techniques of the Year 2000 conversion program to financial
systems improvement. Progress in mapping the flow of financial data and
compiling an inventory of systems had been disappointingly slow, despite
the fact that such research was supposed to have been done earlier for a
variety of reasons, including identification of security vulnerabilities,
contingency planning, and systems architecture development. However,
major new DoD management initiatives during FY 2001 and the guidance
provided by the National Defense Authorization Act for FY 2002 had
established the groundwork for a more successful effort. (Report D-2002-
044)

            -- In March 2002, we reported that the two versions of the
Computerized Accounts Payable System, used for Army and Defense
agency payments, lacked effective controls to detect and correct improperly
supported or erroneous payments to contractors. (Report D-2002-056)

              -- In March 2002, we issued two more reports on the use of
Government credit cards. The first was a summary of 31 DoD internal audit
reports on the DoD Travel Card Program. A wide range of problems,
similar to those in the DoD Purchase Card Program, were identified. The
report recounts the actions taken by the Under Secretary of Defense
(Acquisition, Technology and Logistics) and the Under Secretary of Defense
(Comptroller) between June 2001 and early March 2002 to strengthen both
the Travel Card and Purchase Card Programs. (Report D-2002-065)

              -- The second report on credit cards addressed ways to improve
controls in the DoD Purchase Card Program. This report also recounts
recent DoD activities to minimize abuse of Government credit card
privileges, including new initiatives announced in late March by the Under
Secretary of Defense (Comptroller). (Report D-2002-075)

              -- We reported last year that DoD personnel offices lacked
efficient procedures for transmitting employee elections on payroll
withholding to the finance offices and kept poor records. The error rate for
insurance and retirement withholdings and agency contributions was
                                                                                5


approximately 9 percent. In March 2002, we reported the same problems
were persisting and the estimated error rate remained about 9 percent.
(Report D-2002-070)

             -- In March 2002, we reported that DoD needed to improve its
procedures for tracking and collecting recoupments from foreign
governments under the NATO Security Investment Program. Specifically,
more aggressive action was needed to collect $38.6 million owed by various
countries after the U.S. provided upfront financing for construction projects.
(Report D-2002-071)

              -- In a second report on contract closure efforts related to the
phase out of the MOCAS system, we reported in March 2002 on problems
with old contracts that were financed from now cancelled appropriations.
Nearly 4,000 of those contracts could not be closed because of unpaid
invoices. Various DoD organizations had not identified funding to make the
payments and prompt payment interest penalties were being incurred. The
Department needs to identify up to $97 million in current year funds to pay
these bills. (Report D-2002-076)

The full text of these reports is available on-line at www.dodig.osd.mil.

Responding to Congressional Direction

       Section 1008 of the National Defense Authorization Act for FY 2002
directs the Inspector General, DoD, to perform only the minimum audit
procedures required by auditing standards for year-end financial statements
that management acknowledges to be unreliable. The Act also directs us to
redirect any audit resources freed up by that limitation to more useful audits,
especially in the financial systems improvement area.

       We strongly agree with the rationale behind Section 1008. Due to
overall resource constraints, it would be impossible to provide audit support
in the crucial systems improvement area if we were forced to continue
expending resources on labor-intensive audits of convoluted workarounds
and poorly documented transactions that currently characterize most major
DoD financial statements. We have long advocated focusing primary
attention on the system problems that are at the core of the DoD financial
reporting problems. By rejecting the notion that financial statements
compiled by special efforts, which bypass or override official accounting
                                                                              6


systems, are worth their high cost or constitute progress, Section 1008 has
reintroduced an appropriate sense of proportion.

DoD Financial Management Initiatives

       The initiatives announced by DoD over the past year appear to be
highly compatible with the course mandated by Section 1008 and clear
indicators of intent to transform DoD financial management, not just tinker
with it. In Inspector General reports and testimony over the past several
years, we had expressed concerns that the cost of the Chief Financial
Officers Act compliance effort was unknown, performance measures were
lacking, there was no sense of consistently strong central leadership and
there was no assurance that managers would get more useful financial
information, even if year-end financial statements eventually received
favorable audit opinions. The Department is being responsive to those
concerns.

       We believe that the effort to establish a comprehensive financial
system architecture is a necessary and long overdue step. There are
undeniable risks--development of the architecture could take much longer
than anticipated, the end product might leave numerous unresolved issues,
the cost to implement the architecture might be prohibitively expensive or
the DoD might lack the discipline to make system program managers
conform to the architecture. The DoD does not have a good track record for
deploying large information systems that fully meet user expectations,
conform with applicable standards, stay within budget estimates and meet
planned schedules. Nevertheless, we are cautiously optimistic. The
Department has taken a major step forward by accepting the premise that the
financial management improvement effort needs to be treated as a program,
with all of the management controls that a very large program should have.
Those include a master plan, well defined management accountability, full
visibility in the budget, regular performance reporting and robust audit
coverage. We believe that the DoD is making a good faith effort to create a
strong management structure for the systems improvement effort. We look
forward to assisting with timely and useful audit advice, just as we did
during the Year 2000 conversion.

        Likewise, we welcome the emphasis in the President's Management
Initiatives on controlling erroneous payments. The DoD has worked hard to
improve the efficiency of its disbursement operations; however, this is
                                                                             7


another area where the inadequacy of current systems and delays in fielding
replacements are vexing problems. As the Department pursues the goal of
greatly improved financial reporting, it must also keep focused on the need
for better controls in many facets of its day-to-day finance operations and
closely related purchasing activities, such as the use of Government credit
cards. Again, these are areas where audit and investigative support are vital.
In addition to a steady flow of relevant audit reports, we plan to continue
supporting the Department with proactive fraud prevention and detection
efforts, as well as aggressive investigation of indications of fraud. To
illustrate the fact that those who commit financial crimes against the DoD
run considerable risk, I have attached to this statement a list of examples of
recently closed Defense Criminal Investigative Service cases on frauds
involving the misuse of DoD credit cards.

Again, thank you for soliciting our views on these matters.

Attachment
                  Examples of Defense Criminal Investigative Service
                            Cases on Credit Card Fraud


•   David M. White pled guilty to placing fraudulent charges against 13 Government
    credit cards. He was sentenced in U.S. District Court, Panama City, Florida, to 18
    months incarceration, $262,840 in restitution and other fees and 36 months
    supervised release.

•   John L. Henson, Jr., pled guilty to using a Government credit card to buy a television
    for personal use. He was terminated from DoD employment and sentenced in Federal
    Court in the Eastern District of Texas to a $3,000 fine and $1,400 restitution.

•   Lionel G. Green pled guilty to a one count criminal information charging him with
    theft using a Government credit card. He was sentenced in U.S. District Court,
    Eastern District of Virginia, to 4 months imprisonment, 4 months home detention, 3
    years probation and $61,465 in restitution and other fees.

•   Jerome D. Phillips pled guilty to conspiracy in a fraudulent scheme involving the
    misuse of a purchase card while assigned to the Joint Staff Supply Service. He was
    sentenced in U.S. District Court, Eastern District of Virginia, to serve a jail term of 12
    months and one day, 24 months probation, and restitution and other fees of $120,100.

•   Johnny L. Bailey, formerly assigned to the Joint Staff Supply Service, pled guilty to
    conspiracy to defraud the Government using his official purchase card. He was
    sentenced in U.S. District Court, Eastern District of Virginia, to 2 years probation,
    restitution and other fees of $70,100 and 6 months of electronic monitoring.

•   Tyrone X. Celey, Sr., pled guilty to bribing Joint Staff Supply Service employees to
    make credit card purchases from his office supplies company. He was sentenced in
    U.S. District Court, Eastern District of Virginia, to 27 months of incarceration, 36
    months of supervised release, and $400,200 in restitution and other fees.

•   Former Master Sergeant Bobby Gilchrist, also a figure in the Joint Staff Supply
    Service case, pled guilty to one count of money laundering, bribery and conspiracy.
    He conspired with contractors to defraud the DoD by accepting cash payments for
    making both otherwise legitimate and bogus purchases from them, using his and other
    employees' credit cards. He was sentenced in U.S. District Court, Eastern District of
    Virginia, to 41 months in prison, 3 years of supervised release, and $400,300 in
    restitution and other fees.

•   Carla F. Armstrong pled guilty to six counts of theft and other charges related to
    misuse of her Government credit card. She was sentenced in Federal Court, Southern
    District of Indiana, to 3 years of supervised probation, including 4 months of home
    confinement, and $10,945 in restitution and other fees.
                                                                                            2


•   Tommie Ray Briley pled guilty to stealing Government property by using his official
    credit card to buy hardware items and selling them to a second party for cash. He was
    sentenced in U.S. District Court, Eastern District of Texas, to 3 years probation and
    $26,378 in restitution and other fees.

•   Quintin A. Swann pled guilty to charges related to fraudulent use of his Government
    credit card while employed in the Office of the Assistant Secretary of the Army
    (Financial Management and Comptroller). He was sentenced in U.S. District Court,
    Eastern District of Virginia, to 14 months imprisonment, 3 years of supervised release
    and $90,200 in restitution and other fees.

•   Susan E. Johnson and James E. Johnson, Navy employees, pled guilty to charges
    related to the purchase of a motorcycle and other items for their own use, misusing a
    Government credit card to do so. Susan E. Johnson was sentenced in U.S. District
    Court, Eastern District of Virginia, to 5 years probation and fines totalling $1,025.
    James E. Johnson was sentenced to 6 months home confinement, 3 years probation
    and $13,279 in restitution.


Press releases on indictments, convictions, sentences and civil settlements stemming from
Defense Criminal Investigative Service cases are available at www.dodig.osd.mil. Many
of these cases are joint efforts with other Federal and DoD law enforcement agencies, as
explained in the individual press releases, when applicable.
